UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




               Cloud Computing

             Report No. OIG-AMR-74-14-03




                                    September 11, 2014
                                             CONTENTS

EXECUTIVE SUMMARY ............................................................................ 1

BACKGROUND.......................................................................................... 2

OBJECTIVE, SCOPE, AND METHODOLOGY ............................................... 2

CIGIE CLOUD COMPUTING TEMPLATE ..................................................... 5

FINDINGS ............................................................................................... 19

     Best Practices for Cloud Computing ................................................. 19
     Recommendation ............................................................................. 20
     Limitations on Services ................................................................... 20
     Recommendation ............................................................................. 21
     FAR Clauses ..................................................................................... 21
     Recommendation ............................................................................. 22
     Compliance with FedRAMP............................................................... 22
     Recommendation ............................................................................. 23

APPENDIX

     Memorandum from the Chief Financial Officer and the Chief Information
     Officer, Response to Audit of the National Labor Relations Board Cloud
     Computing Report No. OIG-AMR-74-XX-XXX, dated September 8, 2014
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

Cloud computing offers a unique opportunity for the Federal Government to
take advantage of cutting edge information technologies to dramatically reduce
procurement and operating costs and greatly increase the efficiency and
effectiveness of services. That opportunity, however, brings with it challenges
and vulnerabilities.

This audit evaluates the Agency’s efforts to adopt cloud computing technologies
and review contracts for cloud services for compliance with applicable
standards. We conducted this audit in conjunction with a Governmentwide
initiative by the Council of the Inspectors General on Integrity and Efficiency.
We compiled results of our audit into a Governmentwide report.

We generally found that the Agency is using and monitoring its cloud
computing services. We also noted areas where the acquisition and
implementation processes would benefit from additional procedures.

The Chief Financial Officer and the Chief Information Officer provided
comments on the draft report. They stated that they concurred with the
report’s recommendations and that the Agency is committed to acting upon
them. The comments also noted that the Acquisitions Management Branch
has designated Contracting Officers for information technology and cloud
computing procurements and those individuals were the only representatives
from the acquisitions career field at the Federal Mobile and Cloud Computing
Summit in June 2014. The comments provided examples of actions that the
Agency has taken to use cloud computing to maximize capacity utilization;
improve flexibility and responsiveness; and minimize cost.
BACKGROUND

             The National Institute of Standards and Technology (NIST)
             defines cloud computing as a model for on-demand network
             access to shared computing resources. Cloud computing
             presents the Federal Government with an opportunity to
             transform its Information Technology (IT) portfolio by giving
             agencies the opportunity to focus on paying for IT services
             consumed rather than buying IT capacity. As a result, cloud
             computing helps the Government increase operational
             efficiencies, resource utilization, and innovation across its IT
             portfolio and delivers a higher return on investment to the
             taxpayer. Because of this potential, the U.S. Chief
             Information Officer instituted a “Cloud First” policy, which is
             intended to accelerate the pace at which the Government will
             realize the value of cloud computing by requiring agencies to
             evaluate safe, secure cloud computing options before making
             any new investments.

             Despite the potential benefits, cloud services also have
             potential vulnerabilities. The vulnerabilities include the
             complexity of a cloud computing environment, dependency
             on the cloud service provider to maintain separation of an
             agency’s data, and the need to retain appropriate control.


OBJECTIVE, SCOPE, AND METHODOLOGY

             This audit’s objectives were to evaluate the Agency’s efforts
             to adopt cloud computing technologies and review contracts
             for cloud services for compliance with applicable standards.
             The audit scope was cloud computing services that the
             Agency used through February 2014.

             We interviewed staff in the Office of the Chief Information
             Officer (OCIO) and the Acquisitions Management Branch
             (AMB) regarding the Agency’s processes for acquiring and
             managing cloud computing services. We reviewed the
             Federal Acquisition Regulation (FAR) and Governmentwide
             guidance on cloud computing systems issued by NIST and
             the Office of Management and Budget (OMB). We also
             reviewed guidance jointly published by the Chief Information
             Officers Council (CIO Council) and the Chief Acquisition
             Officers Council (CAO Council) regarding best practices for
             acquiring cloud computing services.


                                  2
We obtained a listing of the Agency’s cloud computing
systems from the OCIO. From that listing, we selected a
judgmental sample of the systems with the four largest
contract values and obtained the contract files from AMB
and other documentation related to the cloud computing
systems from the OCIO.

For each system in the sample, we reviewed the contract files
to determine whether:

•   The contracts with cloud service providers clearly define
    the roles and responsibilities of the Agency, cloud service
    provider, and, if applicable, system integrators;

•   The contracts with cloud service providers contain service
    level agreements that define performance with clear terms
    and definitions, demonstrate how performance is being
    measured, and what enforcement mechanisms are in
    place to ensure the service level agreements are met;

•   The contracts with cloud service providers contain
    recommended language for allowing Agency personnel
    access to a cloud service provider’s facilities to perform
    audit and investigative activities as needed;

•   The Agency monitors its cloud computing providers and
    integrators to ensure that service level obligations are
    met;

•   The Agency centrally manages contracts with cloud
    service providers to fully recognize all applicable pricing
    discounts; and

•   The Agency’s cloud service providers are compliant with
    the Federal Risk and Authorization Management Program
    (FedRAMP).

This audit was conducted in conjunction with a
Governmentwide initiative by the Council of the Inspectors
General on Integrity and Efficiency (CIGIE). To perform the
audit, we completed the CIGIE-provided template
questionnaire. The audit results were consolidated with the
responses of other Federal agencies as a part of a CIGIE
report.



                      3
We conducted this performance audit in accordance with
generally accepted government auditing standards during
the period February 2014 through June 2014. Those
standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions
based on our audit objectives.




  [CONTINUED ON FOLLOWING PAGE]




                    4
CIGIE CLOUD COMPUTING TEMPLATE

                                 Amazon Web
Question                          Services    DiscoverText       Office 365   ServiceNow
1.1   Date the Agency's
      Inspector General
      Contact received the
      completed CIGIE Cloud                       February 27, 2014
      Computing Survey from
      the Agency.

1.2   If the Agency did not
      return a completed
      survey - please provide
      a reason why in the
      response field. (i.e.
      Agency was not able to                        Not Applicable
      provide because it did
      not have any cloud
      systems in its
      inventory.)

2.1   How many total cloud
      IT services were
      identified from the                                    6
      survey?

2.2   How many unique cloud
      service providers were
      identified from the                                    6
      survey?

3.1   Did the Cloud contract
      include Terms of Service
      clauses?                      No            No                No           Yes




                                                    5
                                  Amazon Web
Question                           Services    DiscoverText   Office 365   ServiceNow
3.1a   If not, did the
       Department/Agency
       sign a Terms of Service
       agreement with the            Yes           No            No          N/A
       cloud service provider?

3.2    If the Terms of Service
       clauses were not
       directly within the
       contract, but referenced
       within the contract,
       were the Terms of             No           N/A           N/A          N/A
       Service clauses
       negotiated and agreed
       to prior the contract
       being awarded?

3.3    Is there a
       Departmental/Agency
       official assigned to
       monitor the cloud
       service provider’s            Yes           Yes          Yes           Yes
       compliance with the
       Terms of Service?

3.4    Is there a
       Departmental/Agency
       official assigned to
       monitor the Agency's          Yes           Yes          Yes           Yes
       compliance with the
       Terms of Service?




                                                     6
                                   Amazon Web
Question                            Services    DiscoverText   Office 365   ServiceNow
3.5    Do the Terms of Service
       clauses or the Cloud
       contract address
       timeframes that the
       cloud service provider
       will need to follow in         No            No            No           No
       order to comply with
       Federal agency rules
       and regulations?

3.6    Did the cloud service
       provider sign a non-
       disclosure agreement
       with the Department /
       Agency in order to
       protect non-public
       information that is
       procurement-sensitive,         No            No            No           No
       or affects pre-decisional
       policy, physical
       security, or other
       information deemed
       important to protect?

3.6a   If so, does the non-
       disclosure agreement
       establish rules of
       behavior for the cloud
       service provider and a        N/A           N/A           N/A          N/A
       method to monitor end-
       users activities in the
       cloud environment?




                                                      7
                                  Amazon Web
Question                           Services    DiscoverText   Office 365   ServiceNow
3.6b   If so, is there a
       Departmental/Agency
       official assigned to
       monitor the cloud
       service provider’s           N/A           N/A           N/A          N/A.
       compliance with the
       non-disclosure
       agreement?

4.1    Does the Agency have
       an executed Service
       Level Agreement with
       the cloud service
       provider, either as part      Yes           No            No           Yes
       of the contract, or as a
       stand-alone document?

4.2    Does the executed
       Service Level Agreement
       for the cloud service
       specify required uptime       Yes          N/A           N/A           Yes
       percentages?

4.3    Does the executed
       Service Level Agreement
       for the cloud service
       describe how the              Yes          N/A           N/A           Yes
       uptime percentage is
       calculated?




                                                     8
                                  Amazon Web
Question                           Services    DiscoverText   Office 365   ServiceNow
4.4   Does the executed
      Service Level Agreement
      detail remedies to be
      paid by the cloud
      service provider to the        Yes          N/A           N/A           Yes
      Agency if the uptime
      requirements are not
      met?

4.5   Has the
      Department/Agency
      assigned someone to
      monitor the actual
      uptime, compare it to
      the percentage included        Yes          N/A           N/A           Yes
      in the executed Service
      Level Agreement, and
      pursue service credits if
      applicable?

4.6   Has the
      Department/Agency
      realized any service
      credits due to uptime          Yes          N/A           N/A          N/A
      failures?

4.7   Does the executed
      Service Level Agreement
      detail data preservation       Yes          N/A           N/A           Yes
      responsibilities?

4.8   Does the executed
      Service Level Agreement
      address scheduled              No           N/A           N/A           Yes
      service outages?




                                                     9
                                  Amazon Web
Question                           Services    DiscoverText   Office 365   ServiceNow
4.9    Does the executed
       Service Level Agreement
       require a service outage
       to be announced in
       advance in order not to       No           N/A           N/A           Yes
       be considered a failure
       to meet uptime
       requirements?

4.10   Does the executed
       Service Level Agreement
       address Service               Yes          N/A           N/A           Yes
       Agreement Changes?

4.11   If the cloud service
       provider reserves the
       right to modify the
       terms of the service
       agreement at any time,
       does the executed
       Service Level Agreement       Yes          N/A           N/A           No
       require the cloud
       service provider to
       provide notice of the
       changes to the Agency?




                                                    10
                                   Amazon Web
Question                            Services    DiscoverText   Office 365   ServiceNow
5.1   Does the Cloud
      contract, Service Level
      Agreement, or Terms of
      Service agreement,
      contain FAR clause
      52.239-1, allowing the
      Agency access to the
      cloud service provider 's       Yes           No           Yes           Yes
      facilities, installations,
      technical capabilities,
      operations,
      documentation, records,
      and databases?

5.2   Does the Cloud
      contract, Service Level
      Agreement, or Terms of
      Service allow agencies
      to conduct forensic
      investigations for both
      criminal and non-               No            No           Yes           No
      criminal purposes
      without interference
      from the cloud service
      provider?




                                                     11
                                 Amazon Web
Question                          Services    DiscoverText   Office 365   ServiceNow
5.3   Does the Cloud
      contract, Service Level
      Agreement, or Terms of
      Service allow the cloud
      service provider to only
      make changes to the
      cloud environment
      under specific standard       No            No           Yes           No
      operating procedures
      agreed to by the cloud
      service provider and the
      Federal agency in the
      contract?

5.4   Does the Cloud
      contract, Service Level
      Agreement, or Terms of
      Service include FAR
      clause 52.203-13,
      requiring contractors
      fully cooperate by
      disclosing sufficient
      information for law
      enforcement to identify
      the nature and extent of      Yes           No           Yes           Yes
      the offense as well as
      providing timely
      response to Government
      auditors' and
      investigators' requests
      for documents and
      access to employees
      with information?




                                                   12
                                 Amazon Web
Question                          Services    DiscoverText   Office 365   ServiceNow
5.5   Does the Cloud
      contract, Service Level
      Agreement, or Terms of
      Service address
      procedures for                Yes           No           Yes           No
      electronic discovery
      when conducting a
      criminal investigation?

5.6   Does the Cloud
      contract, Service Level
      Agreement, or Terms of
      Service agreement,
      contain FAR clause
      52.215-2, granting the
      Inspector General
      access to (i) Examine
      any of the Contractor’s
      or any subcontractor’s
      records that pertain to       Yes           No            No           Yes
      and involve
      transactions relating to
      this contract or a
      subcontract hereunder;
      and (ii) Interview any
      officer or employee
      regarding such
      transactions?




                                                   13
                                   Amazon Web
Question                            Services    DiscoverText   Office 365   ServiceNow
5.7   Does the Cloud
      contract, Service Level
      Agreement, or Terms of
      Service include
      language allowing the
      Office of Inspector
      General full and free
      access to the
      Contractor's (and
      subcontractor's)
      facilities, installations,
      operations,                     No            No           Yes           No
      documentation,
      databases, and
      personnel used in
      performance of the
      contract in order to
      conduct audits,
      inspections,
      investigations, or other
      reviews?

6.1   Has the Agency
      designated a person
      responsible for
      monitoring the cloud
      service provider and/or         Yes           Yes          Yes           Yes
      the system integrator to
      verify that contractual
      obligations are met?

6.2   Does the Agency
      monitor its cloud
      service providers to
      ensure its service level        Yes           Yes          Yes           Yes
      obligations are met?




                                                     14
                                   Amazon Web
Question                            Services    DiscoverText         Office 365   ServiceNow
6.3    Does the Agency
       monitor its system
       integrator, if different
       from the cloud service
       provider, to ensure its        Yes          N/A                 N/A          N/A
       service level obligations
       are met?

7.1    Does the
       Department/Agency
       have an office or group
       that centrally manages
       cloud service contracts                                 No
       to recognize applicable
       pricing discounts?

7.1a   If so, was this
       office/group utilized to
       procure all cloud                                       N/A
       services sampled?

7.2    Were any pricing
       discounts realized on
       the cloud services             No            Yes                 No           No
       procured?

7.2a   If so, document the
       amount of savings
       identified into the           N/A         $31,604               N/A          N/A
       response field.

7.3    Was a Blanket Purchase
       Agreement used to
       procure this cloud             No            No                  No           No
       service?




                                                     15
                                   Amazon Web
Question                            Services        DiscoverText   Office 365   ServiceNow
7.4    Was a GSA Cloud
       Blanket Purchase
       Agreement used to
       procure this cloud               No              No            No           No
       service?

7.5    Was the GSA IT 70
       Federal Supply
       Schedule used to
       procure this cloud              Yes              No            No           Yes
       service?

7.6    Was a cost savings
       analysis performed on
       the use of the cloud            Yes              No            Yes          No
       service?

7.6a   If so, document the
       amount of savings
                                     $500,000
       identified into the
                                   (over 6 years)      N/A         $1,000,000     N/A
       response field.

8.1    Is the cloud service
       FedRAMP Compliant?              Yes              No            Yes          No
8.1a   If not, has the Agency or
       the cloud service
       provider applied to
       FedRAMP to initiate the         N/A              No           N/A           Yes
       assessment review?




                                                         16
                                  Amazon Web
Question                           Services    DiscoverText   Office 365    ServiceNow
8.1b   If not, has the cloud
       service provider
       documented its
       FedRAMP implemented          N/A            No           N/A            Yes
       security controls in its
       System Security Plan?

8.1c   If not, has the cloud
       service undergone an
       independent
       assessment completed
       by a FedRAMP approved
       Third Party Assessment
       Organization (3PAO)?         N/A            No           N/A            No
       (Verify if the vendor is
       included on the
       "FedRAMP Compliant
       3PAO" list, included in
       the criteria links.)

8.1d   Specify assessment
       organization in
       response field.              N/A           N/A           N/A        Veris Group
8.2    Has the cloud service
       provider received a
       Provisional
       Authorization from the       N/A            No           Yes            No
       Joint Authorization
       Board?




                                                    17
                                  Amazon Web
Question                           Services    DiscoverText   Office 365   ServiceNow
8.3    Did the Agency leverage,
       or does it plan on
       leveraging, a pre-
       existing Provisional
       Authorization from a          Yes           No           Yes           Yes
       FedRAMP approved
       cloud service provider?

8.3a   If so, did the Agency
       separately address a
       subset of security
       controls with the cloud
       service provider that
       was not documented in         No           N/A            No           No
       the Provisional
       Authorization originally
       granted by the Joint
       Authorization Board?

9.1    Does the cloud service
       have an authorization
       from the FedRAMP
       Joint Authorization           Yes           No           Yes           No
       Board?

9.2    Does the cloud service
       have an Authority To
       Operate from the              No           N/A            No          N/A
       Agency?




                                                    18
FINDINGS

Best Practices for Cloud Computing

                In February 2012, the CIO Council and the CAO Council
                jointly published a paper titled “Creating Effective Cloud
                Computing Contracts for the Federal Government: Best
                Practices for Acquiring IT as a Service.” The paper provides
                Federal agencies more specific guidance in effectively
                implementing the “Cloud First” policy and moving forward
                with the Federal Cloud Computing strategy by focusing on
                ways to more effectively procure cloud services within
                existing regulations and laws. The paper is intended to be
                guidance developed from the best practices across
                government and industry for agencies to use when entering
                the procurement process.

                The Agency entered into procurement actions for the
                purchase of cloud computing services that did not follow the
                identified best practices. These include:

                •   Federal agencies need to know if a cloud service provider
                    requires an end user to agree to Terms of Service in order
                    to use the cloud service provider’s services prior to
                    signing a contract. Terms of Service restrict the ways
                    Federal Agency consumers can use cloud service provider
                    environments. If the Terms of Service are not directly
                    within the contract but referenced within the contract,
                    they should be negotiated and agreed upon prior to
                    contract award. Two of the four cloud services tested
                    contained Terms of Services, one of which had a separate
                    agreement. The separate agreement, however, was not
                    agreed upon until after the award of the contract.

                    Additionally, the terms of service must address time
                    requirements that a cloud service provider will need to
                    follow to comply with Federal agency rules and
                    regulations, including statutory requirements and
                    associated deadlines. The contract documents for the
                    four cloud services tested did not contain these
                    requirements.

                •   Federal agencies often require cloud service provider
                    personnel to sign non-disclosure agreements when
                    dealing with Federal data in order to ensure that cloud


                                     19
                     service provider personnel protect non-public information
                     that is procurement-sensitive or affects pre-decisional
                     policy or physical security. For the four cloud services
                     tested, the Agency did not enter into non-disclosure
                     agreements with the cloud service provider.

                 •   Service level agreements define acceptable service levels
                     to be provided by the cloud service provider to its
                     customer in measurable terms. Federal agencies should
                     ensure that cloud service provider performance is clearly
                     specified in all service level agreements, and that all such
                     agreements are fully incorporated, either by full text or by
                     reference, into the cloud service provider contract. Two of
                     the four cloud computing services did not have an
                     executed service level agreement.

                 •   Federal agencies should require cloud service providers to
                     allow forensic investigations for both criminal and non-
                     criminal purposes, and that investigations should be
                     conducted without affecting data integrity and without
                     interference from the cloud service providers.
                     Additionally, Federal agencies should ensure that cloud
                     services providers are only allowed to make changes
                     related to the cloud environment under specific operating
                     procedures and have procedures for electronic discovery
                     when conducting criminal investigations.

                     For the four cloud services tested, only Office 365
                     contained all three best practices; Amazon Web Services
                     contained language related to electronic discovery; and
                     the other two cloud services did not contain any of the
                     proposed language.

Recommendation

1. We recommend that the Chief Financial Officer establish procedures to
   ensure that the appropriate CIO Council and CAO Council best practices
   are incorporated into future procurements of cloud computing services.

Limitations on Services

                 The terms of services for a cloud service are determined by a
                 legally binding agreement between the two parties contained
                 in a service agreement and a service level agreement. The
                 service level agreement states the technical performance


                                      20
                 promises made by a provider, including remedies for
                 performance failures. NIST Special Publication 800-146,
                 Cloud Computing Synopsis and Recommendations, identifies
                 limitations that cloud service provider policies generally
                 have, including scheduled service outages not counting as a
                 failure to perform, and providers reserving the right to
                 change the terms of the service agreement at any time, and
                 to change pricing with limited advance notice. NIST
                 recommends that if the terms of the default service
                 agreement do not address the agency’s needs, the agency
                 should discuss modifications of the service agreement prior
                 to use.

                 The Agency entered into service level agreements for two of
                 the four cloud services tested. The service level agreements
                 do not address the limitations addressed by NIST, as
                 addressed below:

                 •   The service level agreement for Amazon Web Services does
                     not address scheduled outages and the scheduling of
                     those outages in advance; and

                 •   The service level agreement for ServiceNow did not
                     address that notice be provided for changes to the
                     agreement.

Recommendation

2. We recommend that the Chief Financial Officer establish procedures to
   address modifications to service level agreements when the agreements do
   not meet the needs of the Agency, as identified by the Chief Information
   Officer.

FAR Clauses

                 The FAR contains the following access-related clauses:

                 •   52.203-13, Contractor Code of Business Ethics and
                     Conduct, which states that the contractor’s internal
                     control system shall provide for full cooperation with any
                     Government agencies responsible for audits,
                     investigations, or corrective actions. Full cooperation is
                     defined as “disclosure to the Government of the
                     information sufficient for law enforcement to identify the
                     nature and extent of the offense and the individuals


                                      21
                     responsible for the conduct. It includes providing timely
                     and complete response to Government auditors’ and
                     investigators’ request for documents and access to
                     employees with information.”

                 •   52.215-2, Audit and Records—Negotiation, which states
                     that the Comptroller General, an appropriate Inspector
                     General, or an authorized representative of either, shall
                     have access to and the right to examine any of the
                     Contractor’s or any subcontractor’s records that pertain
                     to and involve transactions relating to this contract or a
                     subcontract hereunder; and interview any officer or
                     employee regarding such transactions.

                 •   52.239-1, Privacy or Security Safeguards, which states
                     that “To the extent required to carry out a program of
                     inspection to safeguard against threats and hazards to
                     the security, integrity, and confidentiality of Government
                     data, the Contractor shall afford the Government access
                     to the Contractor’s facilities, installations, technical
                     capabilities, operations, documentation, records, and
                     databases.”

                 For the four cloud services tested, Amazon Web Services and
                 ServiceNow contained the three FAR clauses. For the two
                 remaining contracts, one had Clauses 52.203-13 and
                 52.239-1, and the other did not contain any of the clauses.

Recommendation

3. We recommend that the Chief Financial Officer establish procedures to
   ensure that all FAR clauses related to access to cloud systems are
   incorporated into future procurements of cloud services.

Compliance with FedRAMP

                 FedRAMP is a Governmentwide program that provides a
                 standardized approach to security assessment,
                 authorization, and continuous monitoring for cloud products
                 and services. The purpose of FedRAMP is to ensure that
                 cloud based services used Governmentwide have adequate
                 information security, eliminate duplication of effort and
                 reduce risk management costs, and enable rapid and cost-
                 effective procurement of information systems / services for
                 Federal agencies. Agencies were required to have their cloud


                                      22
                  computing systems compliant with FedRAMP by June 2014.

                  As of June 2014, two of the four cloud computing services
                  tested were not compliant with FedRAMP. For the non-
                  compliant services, ServiceNow was in the documentation
                  stage of obtaining a Provisional Authorization by the Joint
                  Authorization Board, and DiscoverText had not begun the
                  process. We are not making a recommendation regarding
                  this issue because it is being addressed at the
                  Governmentwide level.

                  Federal agencies are required by the Federal Information
                  Security Management Act (FISMA) to individually accept risk
                  and grant an authority to operate before placing any agency
                  data into a system. Agencies can use the FedRAMP
                  provisional authorizations to grant an authority to operate
                  for cloud systems in accordance with FISMA. Authorities to
                  operate have not been issued by the Chief Information
                  Officer for the four cloud computing systems tested. The
                  Chief Information Officer concurred with this finding and
                  noted that while the cloud service providers do not have a
                  discrete authority to operate, Office 365 and ServiceNow are
                  initially identified and scheduled for assessment as part of
                  the Agency’s General Support System.

Recommendation

4. We recommend that the Chief Information Officer develop procedures to
   ensure that Agency systems are granted an authority to operate prior to
   placing Agency data into the system.




                                      23
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of the Chief Financial Officer
Memorandum




                                                   Date: September 8, 2014

To:    David P. Berry
       Inspector General

From: Ronald E. Crupi
      Chief Financial Officer

       Bryan Burnett
       Chief Information Officer


Subject: Response to Audit of the National Labor Relations Board Cloud Computing Report
No. OIG-AMR-74-XX-XXX

As noted in the Executive Summary of the above subject report, the Chief Financial Officer
(CFO) and Chief Information Officer (CIO) concur with the Office of Inspector General’s (OIG)
four recommendations and are committed to acting on them.

We appreciate the Inspector General’s recognition of the applicable compliance with Cloud
Computing requirements as we work within the Office of the Chief Financial Officer (OCFO),
Acquisitions Management Branch (AMB), in partnership with the Office of the Chief
Information Officer (OCIO), to implement the Inspector General’s recommendations.

AMB has realigned its designated Contracting Officers to focus on the Information Technology
requirements to include cloud computing. Accordingly, the NLRB was the only Government
Agency to have representatives from the Acquisition career field at the Federal Mobile & Cloud
Computing Summit in June 2014. This forum recognized the need for specialization of
Information Technology and Cloud Computing in the Acquisition field. Further, the AMB is
working on an Acquisition Handbook which will codify the OIG’s recommendations to ensure
compliance with all referenced Cloud Computing requirements.

The OCIO presently is developing procedures to ensure that Agency systems are granted an
authority to operate prior to placing Agency data into the system.

In this report, the OIG found that the Agency is utilizing cloud computing services. Encouraged
by the Federal Government’s Cloud First policy, the Agency has sought to take full advantage of
cloud computing benefits to maximize capacity utilization, improve IT flexibility and
responsiveness, and minimize cost. Agency efforts contained in the OIG report include:

x   The Agency was an early adopter of the ServiceNow cloud Information Technology Services
    Management (ITSM) platform, which the Office of the CIO uses to be more transparent,
    provide Agency staff with multiple ways to get quality support, and as the technology
    enabler of its internal effectiveness initiatives.

x   The Agency migrated its email repositories and services to Microsoft’s cloud-based, software
    as a service solution, Office 365. The Agency repurposed the nearly one million dollar
    investment in its email infrastructure to extend the lifespan of its Next Generation Case
    Management (NxGen) System on-premises infrastructure, and is now using the Office 365
    platform to efficiently deliver administrative systems.

x   The Agency utilized Amazon’s Elastic Compute Cloud to:
       o Reconstruct the NxGen case management development environment to support its
          agile development process.
       o Save approximately $500,000 over the next 6 years by hosting its own legacy
          financial data rather than utilizing a shared services provider.




                                                                                            Digitally signed by BRYAN BURNETT
                      Digitally signed by Ronald Crupi                                      DN: c=US, o=U.S. Government, ou=National


Ronald Crupi          DN: cn=Ronald Crupi, o=National Labor Relations
                      Board, ou=CFO, email=rcrupi@nlrb.gov, c=US
                      Date: 2014.09.08 21:33:24 -04'00'
                                                                                            Labor Relations Board, cn=BRYAN BURNETT,
                                                                                            0.9.2342.19200300.100.1.1=63001000009719
                                                                                            Date: 2014.09.08 19:12:01 -04'00'
____________________________________                                    _______________________________

Ronald E. Crupi, Chief Financial Officer                                Bryan Burnett, Chief Information Officer




Copy: Chairman
      General Counsel
      Deputy General Counsel
